 Semiannual Report To
 The Congress




October 1, 2007 - March 31, 2008
OIG-CA-08-008




 Office of
 Inspector General
 DEPARTMENT OF THE TREASURY
                                    HIGHLIGHTS IN BRIEF
During this semiannual reporting period, our Office of Audit issued 33 reports. Work by our
Office of Investigations resulted in 7 convictions by plea agreement, 4 federal indictments,
1 state charge, and 3 referrals accepted for prosecution. Investigative activities also resulted in
nearly $141,600 in court-ordered fines, restitution, and recoveries, as well as 8 personnel or
administrative actions. Some of our significant results for this period are described below:

•   An Independent Public Accountant (IPA), working under our supervision, issued an unqualified
    opinion on the Department of the Treasury’s fiscal year 2007 consolidated financial
    statements. The audit identified a material weakness related to financial management
    practices at the Internal Revenue Service (IRS) and two other significant deficiencies related to
    information system controls and financial management practices at the departmental level. The
    audit also identified instances of non-compliance with the Internal Revenue Code, the Federal
    Information Security Management Act (FISMA), and the Federal Financial Management
    Improvement Act. In addition, the IPA reported a potential anti-deficiency act violation.
    Furthermore, the IPA disclaimed an opinion on the Community Development Financial
    Institutions Fund’s fiscal year 2007 financial statements. The IPA was unable to obtain
    appropriate representations from management with respect to those financial statements. The
    IPA noted that the Fund’s Chief Financial Officer did not sign the management representation
    letter due to her concerns about potential internal control matters in the operation of the
    awards programs of the Fund. The Fund subsequently engaged a contractor to review its grant
    award process. Our office also initiated a performance audit of the Fund’s post-award grant
    administration activities, which is in progress.

•   An IPA under our oversight completed the 2007 FISMA evaluation of Treasury’s unclassified
    systems, except for those of the IRS. The Treasury Inspector General for Tax Administration
    (TIGTA) performed the FISMA evaluation for the IRS systems. Both our IPA and TIGTA
    observed progress in their respective areas. However, despite this notable progress, Treasury
    has two significant deficiencies, configuration management and IRS information security. In
    support of FISMA, we also evaluated network security at the Financial Crimes Enforcement
    Network (FinCEN). Management concurred with our recommendations to address numerous
    high or critical-severity vulnerabilities.

•   We reviewed Treasury’s participation as it relates to providing information to the National
    Counterterrorism Center as part of a multi-agency evaluation led by the Office of the Director
    of National Intelligence OIG on the process for nominating individuals to the federal
    government’s consolidated terrorist watchlist. We reported that under the authorities granted
    to the Office of Foreign Assets Control, Treasury provides terrorism information to the Center
    by placing individuals and entities on the Specially Designated Nationals list. This is the only
    mechanism that Treasury currently has to “nominate” individuals to the watchlist. We found
    no indications suggesting a need for additional processes at this time.

•   As a result of a joint investigation, a former FinCEN contract employee was convicted of using
    a communication system for soliciting a minor for unlawful purposes. The charges stem from
    the collaboration of the Internet Crimes Against Children Task Force. In response to the
    investigative findings, FinCEN earlier removed the employee from the contract.

•   We continue to work with our counterparts at other federal benefit agencies as part the
    previously reported Improper Payments Initiative. This joint effort has identified approximately
    100 potential violators who may have unlawfully obtained federal benefit payments. In
    addition, the effort has resulted in the arrest of 28 individuals, the conviction of 22 individuals,
    restitution of $668,000, and the recovery of $89,500.
A MESSAGE FROM THE INSPECTOR GENERAL
   I am pleased to present the Department of the Treasury Office of
Inspector General Semiannual Report summarizing activities for the 6-month
period from October 1, 2007, through March 31, 2008.

    Over the past 6 months we ensured the completion of mandated work
including the audit of the Treasury’s FY 2007 consolidated financial
statement required by the Government Management Reform Act and the
independent evaluation of Treasury’s information security program as
required by the Federal Information Security Management Act (FISMA). For
the 6th year in a row, Treasury received an unqualified opinion on their
financial statement while meeting the Office of Management and Budget’s
deadline of November 15th for issuance of the Performance and
Accountability Report. With respect to FISMA, we found that Treasury has
made notable progress but still has two significant deficiencies--configuration
management and IRS information security. Treasury recently hired a new
Chief Information Officer who is addressing information security weaknesses
as one of his top priorities.

    It is worth noting that during this semiannual period we initiated our first
Material Loss Review since 2002. The Federal Deposit Insurance Corporation
Improvement Act of 1991 requires the OIG to conduct an MLR when a bank
fails and results in a loss to the deposit insurance funds of more than $25
million dollars. We anticipate a second MLR in May. The FDIC recently
announced plans to hire additional staff to handle an anticipated increase in
bank failures. Even a moderate increase in bank failures would trigger an
MLR workload for us that would be beyond our resource capability. We will
be coordinating with the other financial regulatory OIGs who have MLR
responsibilities to identify strategies to address the potential for a significant
increase in workload.

   We continue to receive excellent support and cooperation from Secretary
Paulson, Deputy Secretary Kimmitt, and other senior officials throughout the
Department.



                                         Dennis S. Schindel
                                         Acting Inspector General
This Page Intentionally Left Blank
                                            TABLE OF CONTENTS

Highlights in Brief

A Message From The Inspector General

Overview of the OIG and the Treasury..............................................................                         1

        About Our Office ...........................................................................................       1
        About Treasury .............................................................................................       2

Treasury Management and Performance Challenges ...........................................                                 5

        Introduction ..................................................................................................    5
        Management and Performance Challenges ........................................................                     5
        Areas of Concern...........................................................................................        7

Significant Audits and Evaluations ...................................................................                    9

        Financial Management ....................................................................................          9
        Information Technology ..................................................................................         13
        Programs and Operations ................................................................................          14

Significant Investigations ................................................................................               17

        Significant Investigations ................................................................................       17
        Improper Payments Initiative ...........................................................................          19

Other OIG Accomplishments and Activity .........................................................                          23

Statistical Summary .......................................................................................               26

        Summary of OIG Activity ................................................................................          26
        Significant Unimplemented Recommendations ...................................................                     27
        Summary of Instances Where Information Was Refused......................................                          29
        Listing of Audit and Evaluation Reports Issued...................................................                 30
        Audit Reports Issued With Questioned Costs .....................................................                  32
        Audit Reports Issued With Recommendations that
           Funds Be Put to Better Use .........................................................................           32
        Previously Issued Audit Reports Pending Management Decisions
           (over Six Months) ......................................................................................       32
        Significant Revised Management Decisions .......................................................                  32
        Significant Disagreed Management Decisions ....................................................                   32
        References to the Inspector General Act ..........................................................                33

Abbreviations ................................................................................................            34
This Page Intentionally Left Blank
                            OVERVIEW OF OIG AND TREASURY

About Our Office
The Department of the Treasury’s Office of Inspector General (OIG) was established pursuant
to the 1988 amendment to the Inspector General Act of 1978. 1 OIG is headed by an Inspector
General who is appointed by the President of the United States, with the advice and consent
of the United States Senate. Serving with the Inspector General in the immediate office is a
Deputy Inspector General. OIG performs independent and objective reviews of Treasury
programs and operations, except for those of the Internal Revenue Service (IRS), and keeps
the Secretary of the Treasury and Congress fully informed of problems, deficiencies, and the
need for corrective action. The Treasury Inspector General for Tax Administration (TIGTA)
performs audit and investigative oversight related to IRS.

OIG is organized into four divisions: (1) Office of Audit (OA), (2) Office of Investigations (OI),
(3) Office of Counsel, and (4) Office of Management.

          OA performs and supervises audits, attestation engagements, and evaluations. The
          Assistant Inspector General for Audit has two deputies. One deputy is primarily
          responsible for performance audits, and the other deputy is primarily responsible for
          financial management and information technology audits. OA staff are located in
          Washington, DC, and Boston, Massachusetts.

          OI performs investigations and conducts proactive initiatives aimed at detecting and
          preventing fraud, waste, and abuse in Treasury programs and operations. OI also
          manages the Treasury OIG Hotline System to facilitate reporting of allegations involving
          programs and activities under the auspices of the Department. The Assistant Inspector
          General for Investigations is responsible for all investigations relating to the
          Department’s programs and operations and integrity oversight reviews of select
          Treasury bureaus. OI is located in Washington, DC.

          Office of Counsel (1) processes all Freedom of Information Act/Privacy Act requests
          and administrative appeals on behalf of OIG; (2) processes all discovery requests for
          information held by OIG; (3) represents OIG in administrative Equal Employment
          Opportunity and Merit Systems Protection Board proceedings; (4) conducts ethics
          training and provides ethics advice to OIG employees and ensures OIG compliance with
          financial disclosure requirements; (5) reviews proposed legislation and regulations
          relating to the Department; (6) reviews and issues administrative subpoenas;
          (7) reviews and responds to all Giglio requests for information about Treasury personnel
          who may testify in trials; and (8) provides advice to all components within the OIG on
          procurement, personnel, and other management matters and on pending OIG audits and
          investigations.

          Office of Management provides a range of services designed to maintain the OIG
          administrative infrastructure. These services include asset management; budget
          formulation and execution; financial management; information technology; and


1
    5 U.S.C. app. 3.


                  Treasury Office of Inspector General Semiannual Report – March 2008                1
                       OVERVIEW OF OIG AND TREASURY

     officewide policy preparation, planning, emergency preparedness, and reporting for
     OIG. The Assistant Inspector General for Management is in charge of these functions.

     As of March 31, 2008, OIG had 100 full-time staff. OIG’s fiscal year 2008
     appropriation was $18.5 million.


About Treasury
     Treasury’s mission is to serve the American people and strengthen national security by
     managing the U.S. Government’s finances effectively; promoting economic growth and
     stability; and ensuring the safety, soundness, and security of U.S. and international
     financial systems. Organized into bureaus and offices, Treasury encompasses a wide
     range of programs and operations. Currently, Treasury has approximately 107,900 full-
     time equivalent staff. Approximately 91,800 are employed by IRS and approximately
     16,100 are employed by other Treasury bureaus and offices.

Treasury Bureaus

     The Alcohol and Tobacco Tax and Trade Bureau is responsible for enforcing and
     administering laws covering the production, use, and distribution of alcohol and
     tobacco products. It collects alcohol, tobacco, firearms, and ammunition excise taxes
     totaling approximately $17 billion annually.

     The Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency,
     securities, and other official certificates and awards.

     The Bureau of the Public Debt (BPD) borrows the money needed to operate the federal
     government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.

     The Financial Crimes Enforcement Network (FinCEN) supports law enforcement
     investigative efforts and fosters interagency and global cooperation against domestic
     and international financial crimes. It also provides U.S. policy makers with strategic
     analyses of domestic and worldwide trends and patterns.

     The Financial Management Service (FMS) receives and disburses all public monies,
     maintains government accounts, and prepares daily and monthly reports on the status
     of U.S. government finances.

     The Internal Revenue Service (IRS) is the nation's tax collection agency and administers
     the Internal Revenue Code.

     The U.S. Mint designs and manufactures domestic bullion, foreign coins,
     commemorative medals, and other numismatic items. The Mint also distributes U.S.
     coins to the Federal Reserve Banks and maintains physical custody of and protects the
     nation's gold and silver assets.



             Treasury Office of Inspector General Semiannual Report – March 2008              2
                        OVERVIEW OF OIG AND TREASURY


      The Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      The Office of Thrift Supervision (OTS) regulates all federal and many state-chartered
      thrift institutions, which include savings banks and savings and loan associations.

Treasury Offices

      The Departmental Offices (DO) formulates policy and manages Treasury operations.
      Descriptions of certain DO components, relevant to this semiannual reporting period,
      appear below.

      The Office of Terrorism and Financial Intelligence uses Treasury’s intelligence and
      enforcement functions to safeguard the financial system against illicit use and to
      combat rogue nations, terrorist facilitators, money launderers, drug kingpins, and other
      national security threats. This Office is also responsible for integrating FinCEN, the
      Office of Foreign Assets Control (OFAC), and the Treasury Executive Office for Asset
      Forfeiture.

         •   OFAC administers and enforces economic and trade sanctions based on U.S.
             foreign policy and national security goals against targeted foreign countries,
             terrorists, international narcotics traffickers, and those engaged in activities
             related to the proliferation of weapons of mass destruction.

         •   The Treasury Executive Office for Asset Forfeiture administers the Treasury
             Forfeiture Fund, the receipt account for the deposit of nontax forfeitures made
             by IRS Criminal Investigation and the Department of Homeland Security.

      The office is headed by an Under Secretary and includes two major components: the
      Office of Terrorist Financing and Financial Crimes and the Office of Intelligence and
      Analysis. An Assistant Secretary oversees each of these offices.

         •   The Office of Terrorist Financing and Financial Crimes works across all elements
             of the national security community – including the law enforcement, regulatory,
             policy, diplomatic and intelligence communities – and with the private sector
             and foreign governments to identify and address the threats presented by all
             forms of illicit finance to the international financial system..

         •   The Office of Intelligence and Analysis is responsible for the receipt, analysis,
             collation, and dissemination of foreign intelligence and foreign
             counterintelligence information related to the operation and responsibilities of
             Treasury. The Office of Intelligence and Analysis is a member of the U.S.
             Intelligence Community.




              Treasury Office of Inspector General Semiannual Report – March 2008                3
                  OVERVIEW OF OIG AND TREASURY

The Office of Management is responsible for Treasury’s internal management and
policy in the areas of budget, planning, human resources, information and technology
management, financial management and accounting, procurement, and administrative
services to DO. It is headed by the Assistant Secretary for Management and Chief
Financial Officer. The Office of DC Pensions, which is within the Office of
Management, makes federal benefit payments associated with District of Columbia
retirement programs for police officers, firefighters, teachers, and judges.

The Office of International Affairs advises on and assists in formulating and executing
U.S. international economic and financial policy. Its responsibilities include developing
policies and guidance in the areas of international financial, economic, monetary, trade,
investment, bilateral aid, environment, debt, development, and energy programs,
including U.S. participation in international financial institutions.

The Exchange Stabilization Fund is used to purchase or sell foreign currencies, hold
U.S. foreign exchange and Special Drawing Rights assets, and provide financing to
foreign governments.

The Community Development Financial Institutions Fund (CDFI Fund) expands the
availability of credit, investment capital, and financial services in distressed urban and
rural communities.

The Federal Financing Bank provides federal and federally assisted borrowing, primarily
to finance direct agency activities such as construction of federal buildings by the
General Services Administration and meeting the financing requirements of the U.S.
Postal Service.




        Treasury Office of Inspector General Semiannual Report – March 2008                  4
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

Introduction
In accordance with the Reports Consolidation Act of 2000, the Inspector General annually
provides the Secretary of the Treasury with his perspective on the most serious management
and performance challenges facing the Department. The Secretary includes these challenges in
the Department’s annual performance and accountability report. In a memorandum to
Secretary Paulson dated October 24, 2007, Acting Inspector General Schindel continued to
report the same five challenges as our office reported last year: (1) Corporate Management,
(2) Management of Capital Investments, (3) Information Security, (4) Linking Resources to
Results, and (5) Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act (BSA)
Enforcement. It is important to note that management and performance challenges do not
necessarily represent a deficiency in management or performance. Instead, most of them
represent inherent risks associated with Treasury’s mission, organizational structure, or the
environment in which it operates. As a result, the Department can take steps to mitigate these
challenges but not entirely eliminate them; as such, they require constant management
attention. In addition to these five management and performance challenges, our memorandum
discussed two additional areas that are of increasing concern to our office. These areas are
the potential impact of worsening real estate and credit markets on Treasury’s regulators and
the effect of stagnant or reduced budgets on the Department’s control environment.


Management and Performance Challenges
•   Corporate Management. Starting in 2004, we identified corporate management as an
    overarching management challenge. In short, Treasury needs to provide effective corporate
    leadership in order to improve performance as a whole. Inherent in this is the need for clear
    lines of accountability between corporate, bureau, and program office management;
    enterprise solutions for core business activities; consistent application of accounting
    principles; and effective oversight of capital investments and information security. With
    nine bureaus and a larger number of program offices, Treasury is a highly decentralized
    organization. We believe the Department has made progress in building up a sustainable
    corporate control structure. The challenge now is to maintain emphasis on corporate
    governance and institutionalize these efforts to ensure that capital investments are properly
    managed, information about government operations and citizens is adequately secured, and
    financial resources used by Treasury can be linked to operational results.

•   Management of Capital Investments. Managing large capital investments, particularly
    information technology (IT) investments, is a difficult challenge facing any organization
    whether public or private. In prior years we have reported on a number of capital
    investment projects that either failed or had serious problems. In light of this, with
    hundreds of millions of procurement dollars at risk, Treasury needs to be vigilant in this
    area as it proceeds with its telecommunications transition to TNet; implementation of
    Homeland Security Presidential Directive–12, Policy for a Common Identification Standard
    for Federal Employees and Contractors; the anticipated renovation of the Treasury Annex;
    and other large capital investments.




                Treasury Office of Inspector General Semiannual Report – March 2008              5
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

    It should be noted that during the last year, the Secretary and Deputy Secretary continued
    to emphasize that effective management of major IT investments is the responsibility of all
    Treasury executives. Additionally, the Department significantly increased the number of IT
    investments that are monitored through the Office of Management and Budget (OMB)
    quarterly high-risk reporting process. The Department also plans to reinstitute a governance
    board consisting of senior management officials to provide executive decision-making on,
    and oversight of, IT investment planning and management and to ensure compliance with
    the related statutory and regulatory requirements.

•   Information Security. Despite notable accomplishments, the Department needs to improve
    its information security program and practices to achieve compliance with the Federal
    Information Security Management Act of 2002 (FISMA) and OMB requirements. Our 2007
    FISMA evaluation, completed in October 2007 and discussed on page 13, found that the
    Department made progress in addressing previously reported deficiencies in the areas of
    certification and accreditation, information security training, plans of actions and
    milestones, system inventory, and incident response. However, our evaluation disclosed a
    significant deficiency in configuration management. Specifically, we noted that Treasury
    did not have adequate configuration management to provide the security necessary to
    protect against common and dangerous threats.

    During 2006, OMB issued Memorandum 06-16, Protection of Sensitive Agency Information
    (M-06-16), requiring agencies to perform specific actions to protect certain personally
    identifiable information. Last year, we reported that our evaluation of Treasury’s
    compliance with M-06-16 disclosed that Treasury still faced significant challenges to meet
    these requirements. We will be performing follow-up work to determine if Treasury has
    progressed in resolving these issues. However, as a significant action, the Department
    recently established the Personally Identifiable Information Risk Management Group
    consisting of senior management officials. The purpose of this group is to help manage and
    contain breaches of personally identifiable information. Our office, along with TIGTA,
    participates in the Personally Identifiable Information Risk Management Group in an
    advisory role.

•   Linking Resources to Results. Because the Department has not fully developed and
    incorporated managerial cost accounting (MCA) into its business activities, it cannot
    adequately link financial resources to operating results. This inhibits comprehensive
    program performance reporting and meaningful cost-benefit analyses of the Department’s
    programs and operations. We have noted progress in this area, but more needs to be
    accomplished to implement an effective MCA program Treasury-wide. In 2006, we
    reported that the Department developed a high-level MCA implementation plan, but
    specific action items were not completed and certain target dates were missed. This year,
    Treasury established a workgroup to address MCA requirements, and the workgroup has
    completed a number of actions. The Department expects to have a viable MCA program in
    place in fiscal year 2008.

•   Anti-Money Laundering and Terrorist Financing/BSA.Treasury faces unique challenges in
    carrying out its responsibilities under BSA and the USA Patriot Act to prevent and detect
    money laundering and terrorist financing. While FinCEN is the Treasury bureau responsible



               Treasury Office of Inspector General Semiannual Report – March 2008              6
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

    for administering BSA, a large number of federal and state entities participate in efforts to
    ensure compliance with BSA. These entities include the five federal banking regulators,
    IRS, the Securities and Exchange Commission, the Department of Justice, and state
    regulators. Many of these entities also participate in efforts to ensure compliance with U.S.
    foreign sanction programs administered by OFAC. The dynamics and challenges for
    Treasury of coordinating the efforts of multiple entities, many external to Treasury, are
    difficult. In this regard, FinCEN and OFAC have entered into memoranda of understanding
    with many federal and state regulators in an attempt to build a consistent and effective
    process. Long-term data, however, are not yet available to make an overall determination
    of the effectiveness of the memoranda of understanding.

    Recently, federal regulators and the Department of Justice have participated with FinCEN
    in assessing fines, often in the tens of millions of dollars, against financial institutions that
    have not been maintaining effective BSA compliance programs. While this is a sign that
    regulators are more willing to aggressively enforce BSA requirements, it is also a sign that
    not all financial institutions, despite years of warnings, have implemented effective or
    adequate programs. At the same time, the financial services industry has often complained
    about regulatory burden. To this end, Treasury has taken steps to clarify program and
    reporting requirements and must continually monitor and balance the needs of law
    enforcement with these concerns.

    In fiscal year 2006, the number of BSA reports filed increased to 17.6 million, from 15.6
    million in fiscal year 2005. Although these reports are critical to law enforcement, past
    audits have shown that many contain incomplete or erroneous data. Also, the USA Patriot
    Act increased the types of financial institutions required to file these reports. The
    regulation of certain industries, such as casinos, insurance companies, jewelers, and
    money service businesses, is the responsibility of IRS as a default regulator. IRS has often
    struggled to conduct examinations of many of these entities and recently postponed
    examinations of jewelers, which were supposed to start in January 2006, until at least
    fiscal year 2008.


Areas of Concern
In addition to these five management and performance challenges, we also reported two areas
that are of increasing concern to our office. While we have not specifically declared these
areas as management and performance challenges, we will continue to monitor their impact on
the Department’s programs and operations.

•   Recently, conditions in the real estate market have worsened. At the same time, credit
    markets are being affected by problems associated with subprime loans. Together, these
    events are putting pressure on financial institutions, including those supervised by OCC
    and OTS. Accordingly, Treasury needs to ensure that it has the capability to monitor and
    take prompt action to address potential problems at other institutions should economic
    conditions worsen.

    It should be noted that in September 2007, the OTS-supervised NetBank, FSB failed,
    representing the largest financial institution failure since 2001. In April 2008, after the end


                Treasury Office of Inspector General Semiannual Report – March 2008                 7
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

    of this semiannual reporting period, we completed a material loss review of the NetBank
    failure as required by Section 38(k) of the Federal Deposit Insurance Act, as amended.2

•   Many federal agencies, including Treasury, are facing an increasingly difficult budget
    environment. In such an environment, agencies tend to rely on attrition and hiring freezes
    to address budget shortfalls. While in the short term this strategy may work, longer term it
    often leads to a less than optimal mix of positions and skills, ultimately affecting an
    agency’s ability to meet its mission for many years. Additionally, agencies tend to cut
    certain operations that are viewed as non-mission related, particularly review and
    monitoring functions, including contractor oversight, which are fundamental elements of a
    strong control environment. Over time, such actions could lead to the deterioration of the
    control environment and compromise both the effectiveness and integrity of programs and
    operations.




2
  Section 38(k) requires our office to review a failed financial institution supervised by OCC or OTS if
the loss to a deposit insurance fund exceeds the greater of $25 million or 2 percent of the institution’s
total assets. Our report on the NetBank failure and OTS’s supervision of the institution is available on
our website at http://www.treas.gov/inspector-general.


                 Treasury Office of Inspector General Semiannual Report – March 2008                        8
                   S IGNIFICANT A UDITS AND E VALUATIONS

Financial Management

Financial Audits

Consolidated Financial Statements

An Independent Public Accountant (IPA), working under OIG supervision, issued an unqualified
opinion on the Department’s fiscal years 2007 and 2006 consolidated financial statements. The
audit identified three significant deficiencies related to (1) financial management practices at IRS,
(2) information system controls, and (3) financial management practices at the departmental
level. The significant deficiency related to financial management practices at IRS is considered a
material weakness. The IPA also reported that the Department’s financial management systems
are not in substantial compliance with the Federal Financial Management Improvement Act of
1996. In addition, the audit identified two other instances of reportable noncompliance with laws
and regulations related to the Internal Revenue Code Section 6325 and the FISMA. Furthermore,
an instance of a potential Antideficiency Act violation was reported. Management indicated that
it concurred with the findings included in the report. (OIG-08-009)

Also, in connection with its audit of Treasury’s consolidated financial statements, the IPA issued
a management letter that identified the following other matters where Treasury could improve the
quality and efficiency of financial reporting: (1) improvements can be made to the process of
preparing the President’s Budget Reconciliation; (2) financial reporting standards for Department
component entities should be consistent; (3) disaster recovery plans for the Treasury Information
Executive Repository (TIER) and the Chief Financial Officer Vision (CFO Vision) financial systems
should be established; (4) the completion of TIER application-level change management steps
should be consistently documented using the Software Change Request process; (5) TIER user
account and password configurations should be strengthened; (6) the Financial Analysis and
Reporting System, System Security Plan should be updated to meet National Institute of
Standards and Technology requirements; (7) password configurations within CFO Vision should
be changed to conform with the requirements set forth in the Financial Analysis and Reporting
System, System Security Plan; (8) all reported IT audit findings and recommendations should be
included in the Departmental Offices Plan of Action and Milestones; (9) policies and procedures
for granting user access to TIER and CFO Vision should be consistently followed;
(10) segregation of duties should be enforced within the TIER production environment; and
(11) individual user accountability should be enforced on the database management system that
supports TIER. Management indicated that it concurred with the findings included in the report.
(OIG-08-024)

Other Financial Audits

The Chief Financial Officers Act (CFO Act), as amended by the Government Management Reform
Act of 1994 (GMRA), requires annual financial statement audits of Treasury and OMB-designated
entities. In this regard, OMB has designated IRS for annual financial statement audits. The
financial statements of certain other Treasury component entities are audited pursuant to other
requirements or due to their materiality to Treasury’s consolidated financial statements. The
following table shows audit results for fiscal years 2007 and 2006.



               Treasury Office of Inspector General Semiannual Report – March 2008               9
                      S IGNIFICANT A UDITS AND E VALUATIONS


   Treasury-audited financial statements and related audits
                                            Fiscal year 2007 audit results     Fiscal year 2006 audit results
                                                                Other                              Other
                                                    Material    significant            Material    significant
   Entity                            Opinion        weakness    deficiencies Opinion   weakness    deficiencies
   GMRA/CFO Act requirements
     Department of the Treasury            UQ              1             2        UQ           1                2
     Internal Revenue Service (A)          UQ              4             1        UQ           4                1
   Other required audits
     Bureau of Engraving and
                                           UQ              0             0        UQ           0                1
     Printing
     Community Development
                                             D             0             2         D           0                2
     Financial Institutions Fund
     Office of DC Pensions                 UQ              0             0        UQ           0                0
     Exchange Stabilization Fund           UQ              0             0        UQ           0                0
     Federal Financing Bank                UQ              0             0        UQ           0                0
     Office of the Comptroller of
                                           UQ              0             1        UQ           0                1
     the Currency
     Office of Thrift Supervision          UQ              0             0        UQ           0                0
     Treasury Forfeiture Fund              UQ              0             2        UQ           0                1
     Mint
       Financial statements                UQ              1             0        UQ           0                1
       Custodial gold and silver
                                           UQ              0             0        UQ           0                0
       reserves
   Other audited accounts that are material to Treasury financial statements
     Bureau of the Public Debt
       Schedule of Federal Debt
                                           UQ              0             0        UQ           0                0
       (A)
       Government trust funds              UQ              0             0        UQ           0                0
     Financial Management Service
       Treasury-managed accounts           UQ              0             0        UQ           0                0
       Operating cash of the
                                           UQ              0             1        UQ           0                1
       federal government
   Management-initiated
     FinCEN                                UQ              1             0        UQ           0                0
   UQ - Unqualified opinion
   D   - Disclaimer of opinion
   (A) - Audited by the Government Accountability Office


Disclaimer of Opinion

The IPA disclaimed an opinion on the CDFI Fund’s fiscal year 2007 and 2006 financial
statements because the IPA was unable to obtain appropriate representations from management
of the Fund with respect to those financial statements. The IPA also removed its opinion on the
Fund’s fiscal year 2006 financial statements, which was previously issued as OIG Report No.
OIG-07-011. The IPA noted in its report on the 2007 financial statements that the Fund’s Chief
Financial Officer did not sign the management representation letter due to her concerns about
potential internal control matters in the operation of the awards programs of the Fund, resulting
in her inability to have complete assurance that the Fund’s programs are not free from waste,


                  Treasury Office of Inspector General Semiannual Report – March 2008                           10
                   S IGNIFICANT A UDITS AND E VALUATIONS

fraud, and mismanagement. The Fund subsequently engaged a contractor to review its grant
award process. Our office also initiated a performance audit of the Fund’s post-award grant
administration activities. As part of that audit, which was in progress at the end of this reporting
period, we are visiting selected CDFIs to assess compliance with their award agreements with
the Fund.

The fiscal year 2007 IPA audits of Treasury component entities, performed under our
supervision, identified the following material weaknesses and other significant deficiencies:

Material Weaknesses

•   Mint’s controls over financial accounting and reporting (OIG-08-017)
•   FinCEN’s controls over the calculation of expenses and revenues for the statement of net cost
    (OIG-08-023)

Other Significant Deficiencies

•   Community Development Financial Institutions Fund’s (1) controls over awards monitoring
    and (2) communications and team building (OIG-08-011)
•   OCC’s information technology general controls over financial systems (OIG-08-026 and OIG-
    08-028)
•   Treasury Forfeiture Fund’s (1) recording and accounting for indirect overhead expenses of the
    national seized property contractor to the line item level and (2) post inventory updates to
    Seized Assets and Case Tracking System not performed timely (OIG-08-020)
•   FMS’s effectiveness of computer controls (OIG-08-010 and OIG-08-013)

We also issued management letters that identified other matters that were not required to be
included in the reports on the fiscal year 2007: (1) financial statements of the Bureau of
Engraving and Printing (OIG-08-005), Federal Financing Bank (OIG-08-008), Mint (OIG-08-018),
Treasury Forfeiture Fund (OIG-08-021), and OCC’s (OIG-08-027); and (2) FMS’s Schedule of
Non-Entity Assets, Non-Entity Costs and Custodial Revenue (OIG-08-015).

Federal Financial Management Improvement Act of 1996

The following instances of noncompliance with the Federal Financial Management Improvement
Act of 1996 were reported in connection with the audit of the Department’s fiscal year 2007
consolidated financial statements. All instances relate to IRS. The current status of these
noncompliances, including progress in implementing remediation plans, will be evaluated as part
of the audit of Treasury’s fiscal year 2008 financial statements.




               Treasury Office of Inspector General Semiannual Report – March 2008              11
                        S IGNIFICANT A UDITS AND E VALUATIONS

                                                                                       Fiscal year
                                                                                                     Type of
Entity   Condition                                                                     first
                                                                                                     noncompliance
                                                                                       reported
         Financial management systems do not provide timely and reliable
         information for financial reporting and preparation of financial
         statements. IRS had to rely extensively on resource-intensive                               Federal financial
         compensating procedures to generate reliable financial statements. IRS                      management
IRS                                                                                    1997
         also lacks a subsidiary ledger for its unpaid assessments and lacks an                      systems
         effective audit trail from its general ledger back to subsidiary detailed                   requirements
         records and transaction source documents for material tax-related
         balances such as tax revenues, tax receivables, and tax refunds.
                                                                                                     Federal financial
         Deficiencies were identified in information security controls, resulting in                 management
IRS      increased risk of unauthorized individuals accessing, altering, or abusing    1997          systems
         proprietary IRS programs and electronic data and taxpayer information.                      requirements
         Material weaknesses related to controls over unpaid tax assessments,                        Federal accounting
IRS                                                                                    1997          standards
         tax revenue, and refunds.
         Financial management system cannot produce managerial cost
         information consistent with the requirements of Statement of Federal                        Federal accounting
IRS                                                                                    1998
         Financial Accounting Standards No. 4, Managerial Cost Accounting                            standards
         Standards.
         IRS lacks a subsidiary ledger for its unpaid assessments and lacks an
         effective audit trail from its general ledger back to subsidiary detailed                   Standard general
IRS                                                                                    1997
         records and transaction source documents for material tax-related                           ledger
         balances such as tax revenues, tax receivables, and tax refunds.


Attestation Engagement

An IPA, working under OIG supervision, issued an unqualified opinion that the BPD Trust Fund
Management Branch’s assertions pertaining to the Schedule of Assets and Liabilities and related
Schedule of Activity of Selected Trust Funds, as of and for the year ended September 30, 2007,
are fairly stated. These schedules relate to the functions performed by the Trust Fund
Management Branch as custodian of the following monies and investments: Federal
Supplementary Medical Insurance Trust Fund, Federal Hospital Insurance Trust Fund, Highway
Trust Fund, Airport and Airway Trust Fund, Hazardous Substance Superfund Trust Fund, Leaking
Underground Storage Tank Trust Fund, Oil Spill Liability Trust Fund, Harbor Maintenance Trust
Fund, Inland Waterways Trust Fund, and the South Dakota Terrestrial Wildlife Habitat Restoration
Trust Fund. The attestation examination did not identify any deficiencies in internal control or
instances of reportable noncompliance with laws and regulations. (OIG-08-004)




                     Treasury Office of Inspector General Semiannual Report – March 2008                             12
                      S IGNIFICANT A UDITS AND E VALUATIONS

Information Technology

FISMA Evaluation for 2007

We believe that despite notable           FISMA requires an annual independent evaluation of
progress, Treasury has two                Treasury’s information security program and practices. To
significant deficiencies, configuration   meet FISMA requirements, we contracted with an IPA to
management, and IRS information           perform the FISMA evaluation of Treasury’s unclassified
security.                                 systems, except for those of the IRS. TIGTA performed the
                                          FISMA evaluation for the IRS systems.

Both our IPA and TIGTA observed progress in their respective areas. For example, our IPA noted
that non-IRS Treasury was consistently certifying and accrediting virtually all systems and testing
security controls and contingency plans annually. In addition, TIGTA reported that IRS’s inventory
is substantially complete and that IRS’s plan of action and milestones process is adequate to
ensure that security weaknesses are remediated and that policies and procedures are followed for
reporting IRS’s computer security incidents.

We believe that despite notable progress, Treasury has two significant deficiencies, configuration
management and IRS information security. These two deficiencies, described below, constitute
noncompliance with FISMA.

•   Only four non-IRS bureaus or offices had compliant configuration guides or baselines. The
    remaining eight non-IRS bureaus or offices reviewed have implemented configuration
    baselines; however, these baselines are not in compliance with applicable National Institute of
    Standards and Technology (NIST) guidance. Treasury issued configuration management policy
    on January 30, 2007. The policy requires implementation of this guidance; but allows 1 year,
    or until February 1, 2008, to achieve compliance.

•   Although TIGTA’s 2007 FISMA report noted steady progress in complying with FISMA
    requirements, it noted that IRS still needs to do more to adequately secure its systems and
    data. TIGTA also reported that the most significant areas of concern were annual testing of
    security controls and contingency plans, implementation of configuration management
    standards, and privacy requirements for protecting personally identifiable information. For
    purposes of its Federal Managers’ Financial Integrity Act responsibilities, IRS self-reported a
    material weakness in the area of information security and developed an action plan to address
    the weaknesses.

We also performed the FISMA evaluation of Treasury’s non-IRS nonintelligence national security
systems and noted significant improvement in information security program and practices.
However, our evaluation found that one weakness was unresolved from our prior year evaluation.
This report is sensitive but unclassified. (OIG-CA-08-001 and OIG-CA-08-002)




                  Treasury Office of Inspector General Semiannual Report – March 2008            13
                      S IGNIFICANT A UDITS AND E VALUATIONS

Network Security at FinCEN Needs Improvement

In support of FISMA, we completed an evaluation of network security at FinCEN to identify and
exploit any existing vulnerabilities in computer systems, servers, infrastructure devices, and
users’ awareness of information security threats. An unauthorized attack or system intrusion on
FinCEN’s network could be detrimental to its mission and law enforcement duties. We found
numerous high- or critical-severity vulnerabilities. FinCEN concurred with our recommendations to
address these vulnerabilities and has implemented or planned corrective actions that are
responsive to our recommendations. This report is sensitive but unclassified. (OIG-08-025)



Programs and Operations

Although Weaknesses Still Exist, the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements

We found FedSource made notable    We completed a second audit of Treasury’s compliance with
progress to address weaknesses     applicable laws and regulations for procurements made on
found in prior audits …. However,  behalf of the Department of Defense (DOD) through
we reported that both DOD and      FedSource and BPD’s Administrative Resource Center (ARC),
Treasury have some continuing      components of the Treasury franchise fund. Our second audit
weaknesses, particularly with      focused on fiscal year 2006 procurements. Both this audit and
respect to market research and     the prior one 3 were conducted in coordination with the DOD
contractor surveillance, as well asOIG and were mandated by the National Defense
other problems that need attention.Authorization Act for Fiscal Year 2006. For this audit, we
                                   were again charged with determining whether Treasury was
compliant with applicable requirements for procurements made on behalf of DOD. A
determination of noncompliance would have significant implications for the Treasury franchise
fund as DOD would be required to significantly curtail its use of Treasury for procurements. That
said, it should be noted that BPD announced that it is to complete a controlled and orderly
transition out of the FedSource business no later than September 30, 2008.

We found FedSource made notable progress to address weaknesses found in prior audits, as
evidenced by our findings of fewer exceptions in the areas of competition and price
reasonableness. In addition, we found no significant exceptions related to the proper use of DOD
appropriations. In contrast, DOD OIG identified 21 procurements made through FedSource during
fiscal year 2005 that potentially violated the Antideficiency Act. FedSource also issued
procedures that were responsive to our prior audit report and DOD directives.

However, we reported that both DOD and Treasury have some continuing weaknesses,
particularly with respect to market research and contractor surveillance, as well as other
problems that need attention. Our review of 28 task orders issued by FedSource on behalf of

3
 We reported the results of our first audit in Acquisitions: Treasury Franchise Fund Needs to Improve
Compliance With Department of Defense Procurement Requirements, OIG-07-026 (Jan. 16, 2007).



                  Treasury Office of Inspector General Semiannual Report – March 2008                   14
                  S IGNIFICANT A UDITS AND E VALUATIONS

DOD found the following exceptions: no market research was done for 26 task orders with a
total value of $12.4 million, competition was inadequate for 4 task orders with a total value of
$2.8 million, price reasonableness support was either not documented or inadequate for 8 task
orders with a total value of $4.6 million, the basis for technical evaluation scores was inadequate
for 16 task orders with a total value of $8.4 million, and quality assurance surveillance
deficiencies were noted in all 28 task orders. In addition, we found ARC compliance reviews of
FedSource centers identified contracting deficiencies but did not obtain detailed corrective
actions plans and schedules to address the problems; maximum values were exceeded by nearly
a total of $200 million for five contracts, in violation of competition requirements, because ARC
and FedSource did not monitor task order awards against the contract ceilings in a coordinated
manner; and ARC did not adequately monitor small business contractors’ compliance with certain
contract requirements regarding the extent their own employees are used on contracts.

To the extent they were still applicable, we reaffirmed the recommendations in our prior report.
We also made nine new recommendations. BPD management concurred in general with the
findings in our report. Its response noted that FedSource was instructed to suspend the issuance
of new task orders effective October 1, 2007. As our recommendations apply to the
administration of existing FedSource task orders and to current operations, BPD agreed to
implement the recommendations. (OIG-08-002)

Treasury Provides Terrorism Information for Consolidated Watchlist Purposes Through Its
Specially Designated Nationals List

We conducted an audit on Treasury’s participation as it relates     [A]s the federal government’s
to providing information to the National Counterterrorism           efforts to combat terrorism evolve,
Center (NCTC). We undertook this review as part of a joint          Treasury should regularly reassess
evaluation by the Intelligence Community OIGs on the process        whether additional processes or
for nominating individuals to the federal government’s              measures, apart from SDN
consolidated terrorist watchlist maintained by the Terrorist        designations, are necessary to
Screening Center (TSC). By analyzing information fed to it by a     provide terrorism information to
number of agencies through the NCTC, TSC generates the              NCTC.
terrorist watchlist. The joint evaluation was led by the Office
of the Director of National Intelligence OIG.

We reported that under the authorities granted to OFAC, Treasury provides terrorism information
by placing individuals and entities on the Specially Designated Nationals (SDN) list. NCTC is then
able to electronically access this information to check the names against the Terrorist Identities
Datamart Environment. The SDN list identifies individuals and entities for the purpose of blocking
their property and prohibiting transactions or dealings with them. This is the only mechanism that
Treasury currently has to “nominate” individuals to the federal government’s consolidated
terrorist watchlist. We found no indications suggesting a need for additional processes at this
time.

Our report did not contain recommendations. However, we noted that as the federal
government’s efforts to combat terrorism evolve, Treasury should regularly reassess whether
additional processes or measures, apart from SDN designations, are necessary to provide
terrorism information to NCTC. (OIG-08-022)


               Treasury Office of Inspector General Semiannual Report – March 2008                15
                  S IGNIFICANT A UDITS AND E VALUATIONS


Treasury Has Taken Action to Improve Its Purchase Card Program (Corrective Action
Verification on OIG-04-034)

We found that the corrective actions taken by the Department adequately responded to the
recommendations in our previous audit report. Specifically, the Department emphasized to bureau
heads responsibilities associated with managing the purchase card program and the need for
effective internal controls; developed a purchase card management plan that contains the
management controls, policies, and procedures for the proper use of the government purchase
card; and obtained assessments from bureaus as to the adequacy of their policies, procedures,
and internal controls over their purchase card programs and on cardholder compliance with
policies and procedures. In addition, the Department plans to update Treasury Directive 76-04,
“Government Purchase Card Program,” to provide the official guidance to the bureau
management of purchase card programs. (OIG-08-029)




              Treasury Office of Inspector General Semiannual Report – March 2008         16
                              S IGNIFICANT I NVESTIGATIONS

Conviction of Former FinCEN Contract Employee

A joint … investigation resulted in A joint Treasury OIG, Immigrations and Customs
the December 26, 2007, arrest of    Enforcement, Federal Bureau of Investigation, and Fairfax
Jovie Adawag, a then FinCEN         County Police Department investigation resulted in the
contract employee, who allegedly    December 26, 2007, arrest of Jovie Adawag, a then FinCEN
solicited a sex act from a child    contract employee, who allegedly solicited a sex act from a
using a government-issued           child using a government-issued computer, telephone, and
computer, telephone, and official e-official e-mail account. The charges stem from the
mail account.                       collaboration of the Internet Crimes Against Children Task
                                    Force, which placed a posting on the Internet classifieds Web
site, advertising a fictitious underage prostitute, to which Adawag responded. Subsequent to
his arrest, Adawag was indicted by a grand jury in the Commonwealth of Virginia on February
19, 2008, and was convicted on March 19, 2008, of using a communication system for
soliciting a minor for unlawful activities. In response to the investigative findings, FinCEN
removed the employee from the contract. Adawag remains in custody and sentencing is
pending.

Treasury OIG Investigation Leads to Recovery of U.S. Mint Assets

A Treasury OIG investigation resulted in the recovery of    A Treasury OIG investigation
Treasury archival assets that were removed from the         resulted in the recovery of Treasury
Mint without appropriate authorization. The recovered       archival assets that were removed
assets included a production plaster for the obverse of     from the Mint ….
the 1982 George Washington half dollar coin and three
design sketches for commemorative medals. The Treasury OIG investigation determined that a
former engraver of the Mint removed the items from the Philadelphia Mint upon retiring from
federal service, and attempted to sell the government property through a third-party auction
house. Treasury OIG, in conjunction with the United States Attorney’s Office for the Eastern
District of Pennsylvania, coordinated a surrender of the assets. The surrender was arranged in
lieu of judicial action.

Premium Travel by a Treasury Presidential Appointee

The Treasury OIG investigation     In January 2008, Treasury OIG completed an investigation
determined that the appointee’s    in response to a Government Accountability Office (GAO)
premium-class travel was not       report concerning premium class travel by government
properly approved … but found no   employees. The GAO report concluded that internal
evidence that the appointee abused governmentwide control weaknesses led to the improper
his position and authority ….      and abusive use of premium travel services. The GAO
                                   report specifically identified a Treasury presidential
appointee who purchased 21 premium-class tickets at a total cost to the government of
approximately $129,000. It was alleged that the premium-class tickets were not properly
approved and therefore were not authorized. The Treasury OIG investigation determined that
the appointee’s premium-class travel was not properly approved due to a breakdown in
internal controls within DO but found no evidence that the appointee abused his position and
authority to improperly obtain premium-class travel. Recommendations were provided to DO to


                  Treasury Office of Inspector General Semiannual Report – March 2008         17
                             S IGNIFICANT I NVESTIGATIONS

ensure that proper internal controls are put in place to prevent future unauthorized use of
premium travel services.

Indictment of Individual for Alleged Hurricane Disaster Recovery Fraud

A joint Treasury OIG, Department of Homeland Security           [A]n individual … allegedly applied
OIG, and Social Security Administration (SSA) OIG               for disaster recovery relief assistance
investigation resulted in the indictment by a federal grand     on several occasions and submitted
jury of an individual who allegedly applied for disaster        fraudulent applications for aid in the
recovery relief assistance on several occasions and             wake of several hurricane disasters.
submitted fraudulent applications for aid in the wake of
several hurricane disasters. The subject allegedly used several different personal identifiers,
including false social security numbers and multiple addresses, when submitting the fraudulent
claims. The investigation is ongoing and further judicial action is pending.

Misuse of Treasury Commuter Program Benefits

The investigations revealed that     In response to various referrals from GAO, Treasury OIG
several of the identified Treasury   initiated multiple investigations involving the potential
employees received excessive         misuse of public transportation subsidies by DO employees.
transportation subsidy benefits and  The investigations revealed that several of the identified
misused them by selling them ….      Treasury employees received excessive transportation
                                     subsidy benefits and misused them by selling them for
                                     profit or giving them to friends and family members, in
violation of the program policy. In addition, in order to receive excess subsidy benefits, the
employees provided inaccurate information when applying to the program. The results of the
investigations were provided to DO management for administrative action.

BEP Police Officer Violated Standards of Conduct

A Treasury OIG investigation of a BEP police officer determined that the officer engaged in
lewd behavior and made inappropriate physical contact with several subordinate female BEP
officers. A report of investigation was sent to BEP for administrative action. The individual
submitted his resignation after BEP management proposed disciplinary action.




                 Treasury Office of Inspector General Semiannual Report – March 2008                18
                            S IGNIFICANT I NVESTIGATIONS

Mint Employees Violated Administrative Standards of Conduct

Upon receiving information from the Mint,
Treasury OIG conducted an investigation                {I]n addition to circumventing the system
concerning allegations that two Mint employees         controls by placing orders for Mint coins
improperly ordered and purchased quantities of         using multiple name variations, the two
commemorative coins in excess of the maximum           employees engaged in unauthorized outside
order limit. The investigation determined that in      business activities ….
addition to circumventing the system controls by
placing orders for Mint coins using multiple name variations, the two employees engaged in
unauthorized outside business activities when they sold coins and other memorabilia without
properly requesting and receiving approval from the Mint to engage in such activities. In
response to the investigative findings, the Mint suspended one employee for 7 days and the
other employee for 4 days.



Improper Payments Initiative
As an initiative highlighted in prior semiannual reports, OI continues to support an effort to
identity potentially fraudulent federal benefit and assistance payments warranting further
investigation. Since the inception of this initiative in July 2006, we have worked closely with
our counterparts at SSA, the Railroad Retirement Board (RRB), the Department of Veterans
Affairs (VA), and other federal agencies. This joint effort resulted in the identification of
approximately 100 potential violators who may have unlawfully obtained federal benefit
payments. Since its inception, these joint efforts have resulted in the arrest of 28 individuals,
the conviction of 22 individuals, restitution of $668,000, and the recovery of $89,500.
Details on convictions, guilty pleas, indictments, and arrests during this semiannual period
resulting from this initiative are as follows:

The one-count                  A joint Treasury OIG and VA OIG investigation resulted in the
indictment charged             indictment, arrest, and conviction of two Georgia residents. On
each subject with the          November 2, 2007, Rachel Clark and Rachel D. Clark (mother and
theft of $7,256 of             daughter) were indicted on theft charges by a federal grand jury in
federal benefits ….            the Middle District of Georgia. The one-count indictment charged
                               each subject with the theft of $7,256 of federal benefits to which
                               the defendants were not entitled. The two were arrested in
                               Nashville, Georgia, on November 19, 2007, pursuant to arrest
                               warrants issued in United States District Court. Both subjects pled
                               guilty to one count of theft of government funds in February
                               2008. Sentencing is pending.




                  Treasury Office of Inspector General Semiannual Report – March 2008           19
                              S IGNIFICANT I NVESTIGATIONS

In the six-count               A joint Treasury OIG and RRB OIG investigation resulted in the
indictment, the subject        December 5, 2007, indictment of a Tomball, Texas resident by a
was charged with wire          federal grand jury in the Southern District of Texas. In the six-
fraud and theft of             count indictment, the subject was charged with wire fraud and
government money ….            theft of government money relating to the unlawful receipt and
                               theft of RRB widowed spouse annuity payments to which she was
                               not entitled. On December 6, 2007, the individual was arrested.
                               Trial is scheduled to begin on May 5, 2008.

                               A joint investigation by Treasury OIG, SSA OIG, Health and
{T]he suspect, along with
                               Human Services OIG, United States Postal Inspection Service, and
other identified co-
                               the Federal Bureau of Investigation resulted in the arrest of a
conspirators … may have
                               Philadelphia, Pennsylvania, resident who is suspected of
unlawfully obtained and
                               masterminding an elaborate organized scheme intended to defraud
converted an estimated
                               SSA of Title II Disability Insurance Benefits. The joint investigation
$2 million in SSA benefits.
                               has revealed that the suspect, along with other identified co-
                               conspirators who served as fictitious beneficiaries, may have
                               unlawfully obtained and converted an estimated $2 million in SSA
                               benefits. The investigation is ongoing and further judicial action is
                               pending.

The following are updates on Improper Payment Initiative cases from previous semiannual
reports.

•   As previously reported, a joint investigation by Treasury OIG, SSA OIG, U.S. Immigration
    and Customs Enforcement, and the United States Postal Inspection Service resulted in the
    indictment of Jose A. Diaz by a federal grand jury in the Eastern District of North Carolina
    on theft and identity fraud charges on March 7, 2007, and his subsequent arrest on
    March 28, 2007. The investigation determined that Diaz used fraudulent identification
    documents to assume the identity of another individual and apply for social security
    benefits. Using the fraudulently obtained identity, he collected an estimated $26,000 in
    improper federal benefit payments. On August 6, 2007, Diaz pled guilty to one count of
    aggravated identity theft.

    Update: On January 8, 2008, Diaz was sentenced to imprisonment for a term of 18
    months, supervised release for a term of 12 months, and ordered to pay criminal monetary
    penalties in the amounts of $19,036 for restitution and $100 for a court assessment.

•   As previously reported, a joint investigation by Treasury OIG and VA OIG resulted in the
    indictment and arrest of four Georgia residents. Jesse Reno Berry, Debbie Fleming, Willie
    Pearl Thatch, and Chrisheta Patrice Walker were indicted on theft and identity fraud
    charges in Fulton County, Georgia, on April 27, 2007. The two-count indictment charged
    each subject with the unlawful taking of VA benefits and the fraudulent use of the identity
    of the intended VA benefits recipient. The investigation determined that an estimated
    $40,000 was improperly disbursed following the death of the intended recipient.




                  Treasury Office of Inspector General Semiannual Report – March 2008             20
                         S IGNIFICANT I NVESTIGATIONS

    Update: On September 7, 2007, Berry and Fleming pled guilty and were sentenced in
    Fulton County Superior Court, Fulton County, Georgia. Berry pled guilty to one count of
    identity theft and was sentenced to confinement for a term of 2 years, which may be
    served on probation. Fleming pled guilty to one count of theft and was sentenced to
    confinement for a period of 10 years, with all but 3 years served on probation, and
    community service for a term of 200 hours. On November 30, 2007, Thatch pled guilty to
    both theft and identity fraud charges and was sentenced to confinement for a period of 10
    years, all of which may be served on probation. Berry, Fleming, and Thatch were ordered
    to make joint restitution in the aggregate amount of $29,458. On September 10, 2007, a
    warrant was issued for Walker for her failure to appear before the Fulton County Superior
    Court.

•   As previously reported, a joint investigation by Treasury OIG and VA OIG resulted in the
    May 3, 2007, arrest of a Georgia resident, Enola Baker, on state charges of theft by
    deception related to the unlawful receipt and conversion of VA benefit payments. The
    investigation determined that approximately $69,000 in VA benefit payments were issued
    to the subject’s mother, via electronic fund transfers by FMS, after her recorded death in
    December 2002. It was determined that Baker unlawfully received and converted to her
    own personal use the improperly issued VA benefit payments.

    Update: On February 7, 2008, Baker pled guilty to two theft-related counts in the Superior
    Court of Butts County, Georgia. She was sentenced to probation for the period of 10 years
    and ordered to pay restitution of $69,228.

•   As previously reported, a joint investigation by Treasury OIG, SSA OIG, and the Baltimore
    County Police Department resulted in the March 15, 2007, arrest of Leguene Patterson, a
    resident of Baltimore, Maryland. Patterson was charged with violating Maryland Code,
    Theft-Scheme: $500 Plus, for the fraudulent receipt and negotiation of her deceased
    mother-in-law’s social security benefits. The joint investigation revealed that Patterson
    negotiated over $13,000 in Treasury checks by forging her deceased mother-in-law’s
    signature.

    Update: On October 15, 2007, Patterson pled guilty and was sentenced to probation for a
    period of 3 years and ordered to pay restitution in the aggregate amount of $13,038 to
    SSA and the State Employees Credit Union.

•   As previously reported, a joint Treasury OIG and SSA OIG investigation resulted in the
    November 2, 2006, arrest of Allen Covington, a resident of the District of Columbia,
    relating to the fraudulent receipt and negotiation of his deceased mother’s social security
    checks. The investigation determined that Covington negotiated the Treasury-issued
    checks over a 3-year period and fraudulently received over $33,000 in federal funds. A
    criminal complaint was filed and a warrant was issued in the Superior Court of the District
    of Columbia, resulting in Covington’s arrest for first-degree theft.

    Update: On October 10, 2007, Covington pled guilty to one count of fraud in the first
    degree, and on December 12, 2007, was sentenced to confinement for a term of
    5 months, supervised probation for a term of 2 years, and ordered to pay criminal



               Treasury Office of Inspector General Semiannual Report – March 2008           21
                         S IGNIFICANT I NVESTIGATIONS

   monetary penalties in the amounts of $6,307 for restitution and $100 for a court
   assessment.



The following are updates on other significant investigations discussed in previous semiannual
reports.

Maryland Resident Sentenced in Bank Fraud Case

As previously reported, as a result of a joint Treasury OIG and U.S. Secret Service
investigation, Edward Everett Brown, Jr., a resident of Silver Spring, Maryland, was indicted
on three counts by a federal grand jury in the District of Columbia for attempting to defraud
the Treasury Department Federal Credit Union when he attempted to negotiate two fictitious
obligations, in the amounts of $2.9 million and $5.5 million, at two of the credit union’s
locations in Washington, DC. The defendant was indicted on one count of bank fraud and two
counts of uttering fictitious obligations. On August 3, 2007, a federal jury found Brown guilty
on all three counts.

Update: On November 16, 2007, Brown was arrested pursuant to the issuance of a bench
warrant for failing to appear for pretrial services. Brown was placed and held in custody
pending sentencing. On February 27, 2008, Brown was sentenced to incarceration for a term
of 6 months and supervised release for a term of 3 years.

Chicago Resident Sentenced in Bank Fraud Case

As previously reported, Treasury OIG, in conjunction with the U.S. Secret Service,
commenced an investigation in September 2003 concerning the alleged unauthorized use of
the Treasury Seal and alleged forging of the signature of the Treasury Secretary. Further
investigative activity, including the execution of a search warrant at the Chicago residence of
Carey Portman, resulted in Portman’s arrest and indictment for his alleged involvement in
schemes to defraud financial institutions and various individuals by fraudulently obtaining loans
or attempting to negotiate counterfeit or falsely altered checks. In an amended seven-count
indictment, Portman was charged with bank fraud and possessing and uttering a falsely
altered security. On November 20, 2006, Portman was found guilty on all seven counts in a
jury trial in the U.S. District Court for the Northern District of Illinois, Eastern Division.
Sentencing was scheduled for June 8, 2007.

Update: On October 26, 2007, Portman was sentenced to incarceration for a term of 60
months.




               Treasury Office of Inspector General Semiannual Report – March 2008            22
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

Treasury OIG Hosts French Delegation

                                  In February 2008, Acting Inspector General Dennis Schindel
                                  and OIG executives met with Mr. Jean Arthuis, Senator and
                                  Chairman of the Finance Committee of the Senate of the
                                  Republic of France, to discuss the mission of U.S.
                                  government Inspectors General and Treasury OIG. Also
                                  attending with Mr. Arthuis were Charles Waline, Director of
                                  Staff of the Finance Committee; Mr. Gerard Belet, Minister
                                  Counselor for Economic and Financial Affairs, Embassy of
                                  France; and Mr. Christophe Destais, Financial Counselor for
                                  Economic and Financial Affairs, Embassy of France. Our
                                  meeting with these French officials was arranged through
                                  Ms. Agnes Surry of the embassy’s Economic Department.




                                  Acting Inspector General Schindel
                                  and Mr. Arthuis.




OIG Audit Leadership Roles

The Federal Audit Executive Council (FAEC) consists of audit executives from the OIG
community and other federal audit organizations. Its purpose is to discuss and coordinate
issues affecting the federal audit community with special emphasis on audit policy and
operations of common interest to FAEC members. During the period, Treasury OIG continued
to actively support a number of FAEC initiatives.

•   As chair of the FAEC Training Committee, Marla Freedman, Assistant Inspector General for
    Audit, worked with other committee members to continued to promote and support auditor
    training by (1) developing standard statements of work to contract for auditing courses,
    (2) maintaining a website to facilitate information sharing on sources of training and
    training partnering/sharing opportunities, and (3) providing review services for training
    courses. During this period, the Committee launched a public website with information on
    the types of auditor training needed by the community including course descriptions and
    other materials from the Inspector General Auditor Training Institute, which suspended
    operations in December 2006. The website also includes an e-mail address to contact the
    Committee for additional information. A private website was being developed for use by
    the IG Community on the “business” side of www.ignet.gov. This website is expected to
    provide for a means for OIGs to share their experiences with particular courses as well as
    training partnering opportunities.




               Treasury Office of Inspector General Semiannual Report – March 2008         23
                 O THER OIG A CCOMPLISHMENTS AND A CTIVITY

•     Joel Grover, Deputy Assistant Inspector General for Financial Management and Information
      Security Audits, serves as co-chair of the FAEC Financial Statements Committee and is
      actively involved in developing and coordinating FAEC positions on a variety of accounting
      and auditing issues related to federal financial reporting. The committee also jointly
      sponsors with GAO an annual federal financial statement audit update conference. This
      year’s conference was held on March 4, 2008, and was attended by over 300 individuals
      from most federal agencies, the Office of Management and Budget, GAO, and independent
      public accounting firms.

•     Bob Taylor, Deputy Assistant Inspector General for Performance Audits, is leading a multi-
      agency effort to update the President’s Council on Integrity and Efficiency and Executive
      Council on Integrity and Efficiency (PCIE/ECIE) guide for external peer reviews of federal
      audit organizations. External peer reviews are required every 3 years under Government
      Auditing Standards. The updated guide will incorporate the requirements of the 2007
      revision to those auditing standards.

Mr. Grover is also a member of the Government Performance and Accountability Committee of
the American Institute of Certified Public Accountants. The mission of this Committee is to
(1) promote greater government accountability and the integrity of government operations,
information and information systems; (2) promote and encourage increased participation and
involvement by Certified Public Accountants (CPAs) in government within the Institute;
(3) enhance the professional image and value of CPAs in government; (4) provide advice and
counsel to the Institute on the needs of CPAs in government, and (5) serve as a conduit for
communications among CPAs in government, the Institute, and other professional
organizations.

OI Receives PCIE Award for Improper Payments Initiative

                                                  At the PCIE/ECIE Annual Awards Ceremony in
                                                  October 2007, Treasury OIG received an Award for
                                                  Excellence in recognition for exceptional interagency
                                                  teamwork and outstanding performance in
                                                  implementing the Improper Payments Initiative,
                                                  which is aimed at identifying and prosecuting those
                                                  individuals who have fraudulently received federal
                                                  benefit payments. Subsequently, OI hosted an
                                                  Improper Payments Initiative Awards Ceremony on
                                                  February 4, 2008, to recognize the partner agencies
                                                  and individuals whose teamwork and outstanding
                                                  performance contributed to the success of the
                                                  initiative.

                                                  As part of the ongoing Improper Payments Initiative,
    From left to right: Gerald Garren, P. Brian   we continue to work with Treasury’s Financial
    Crane, Waleska Quiles, James Howell, Jason
                                                  Management Service and our counterpart OIGs at
    Metrick, Lewe Sessions, Jason Weber, Barry
                                                  SSA, RRB, VA, and other federal agencies.
    Ramsey, and Nick Swanstrom.



                     Treasury Office of Inspector General Semiannual Report – March 2008            24
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY


OI Hosts Meeting to Discuss Treasury’s Suspension and Debarment Process

On February 12, 2008, OI hosted a brown bag lunch to discuss a wide range of issues related
to the suspension and debarment process, which can be used to protect the government from
abuse by unscrupulous contractors.

In addition to OIG Special Agents, representatives from Treasury OIG’s Office of Counsel and
OA met with representatives from the Department’s Office of the Procurement Executive and
General Counsel to present their perspectives on the investigative process and legal
requirements associated with suspensions and debarments.




               Treasury Office of Inspector General Semiannual Report – March 2008         25
                                     S TATISTICAL S UMMARY

Summary of OIG Activity
For the 6 Months Ended March 31, 2008



                                                                                                         Number or
     OIG Activity
                                                                                                        Dollar Value
                                            Office of Counsel Activity
     Regulation and Legislation Reviews                                                                          14
     Instances Where Information was Refused                                                                      0
                                             Office of Audit Activities
     Reports Issued (Audits and Evaluations)                                                                     33
     Disputed Audit Recommendations                                                                               0
     Significant Revised Management Decisions                                                                     0
     Management Decision in Which the IG Disagrees                                                                0
     Monetary Benefits (Audit)
         Questioned Costs                                                                                        $0
         Funds Put to Better Use                                                                                 $0
         Revenue Enhancements                                                                                    $0
         Total Monetary Benefits                                                                                 $0
                                       Office of Investigations Activities
     Allegations
         Total Allegations Received and Processed                                                              1040
     Cases – Investigations & Inquiries (Includes Joint Investigations)
         Opened in the Reporting Period*                                                                         46
         Closed in the Reporting Period                                                                         120
         Total Cases in Progress as of 3/31/2008                                                                164
     Criminal & Judicial Actions (Includes Joint Investigations)
         Cases Referred for Prosecution and/or Litigation**                                                      15
         Cases Accepted for Prosecution and/or Litigation***                                                      3
         Arrests                                                                                                  7
         Indictments/Informations                                                                                  5
         Convictions (By Trial & Plea)                                                                             7
         Total Monetary Benefits (Fines/Restitution/Recoveries - Includes Joint                            $141,597
         Investigations)
     Administrative Sanctions
         Total Adverse Personnel Actions Taken                                                                    8
     Oversight Activities
         Prevention and Detection Briefings                                                                       5
         Quality Assessment Reviews                                                                               1
         Management Implication Reports                                                                           2
     *Includes 4 joint investigations initiated by another agency prior to Treasury OIG involvement.
     **Includes 3 joint investigations initiated by another agency prior to Treasury OIG involvement.
     ***Investigations were initiated by another agency prior to Treasury OIG involvement.




                  Treasury Office of Inspector General Semiannual Report – March 2008                                  26
                               S TATISTICAL S UMMARY

Significant Unimplemented Recommendations
For Reports Issued Prior to April 1, 2007

 Number       Date   Report Title and Recommendation Summary

OIG-03-007    10/02 Terrorist Financing/Money Laundering: Controls Over FinCEN's Law Enforcement
                    Data Need Improvement
                    Due to the sensitive nature of the findings and recommendations, we designated
                    the report Limited Official Use. One recommendation in the report has not been
                    implemented.


OIG-05-032    3/05   Terrorist Financing/Money Laundering: Office of Terrorist Financing
                     and Financial Crimes Needs to Refine Measures for Its Performance Budget and
                     Implement a Data Collection and Reporting System
                     The Assistant Secretary for Terrorist Financing should ensure that the Office of
                     Terrorist Financing and Financial Crimes (1) implements the recently proposed
                     performance measures, adjusted as appropriate based on planned discussions
                     with OMB, and include the measures in the Department’s fiscal year 2006
                     budget submission; and (2) develops methods to assess the completeness and
                     reliability of its performance measurement data. (2 recommendations)


OIG-06-010    12/05 Bill and Coin Manufacturing: The Bureau of Engraving and Printing
                    Should Ensure That Its Currency Billing Rates Include All Costs and That
                    Excess Working Capital Is Deposited in the General Fund
                    BEP should ensure that currency billing rates consider the full cost of operations,
                    including imputed costs such as the imputed cost of employee benefits paid by
                    the Office of Personnel Management. To the extent that the currency rates result
                    in excess monies to the BEP revolving fund, they should be deposited as
                    miscellaneous receipts to the Treasury general funds. (1 recommendation)

                     Because this recommendation involves a policy issue with governmentwide
                     implications, the Department referred the matter to OMB. Resolution is pending.


OIG-06-020    12/05 Management Letter for Fiscal Year 2005 Audit of the Federal Financing
                    Bank’s Financial Statements
                    The Federal Financing Bank should formally document its system development
                    methodology and configuration management plans. (1 recommendation)


OIG-06-023    1/06   Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years
                     2005 and 2004 Financial Statements
                     The Treasury Forfeiture Fund should (1) for all common support costs not
                     directly traceable to individual seizures, develop and implement an allocation
                     process and (2) pursue the enhancement of the Seized Assets and Case Tracking
                     System capabilities to record and report total expenses at the asset level.
                     (2 recommendations)




               Treasury Office of Inspector General Semiannual Report – March 2008                  27
                             S TATISTICAL S UMMARY

OIG-06-030   5/06   Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to
                    Better Analyze Bank Secrecy Act Data but Challenges Remain
                    FinCEN should enhance the current FinCEN database system or acquire a new
                    system. An improved system should provide for complete and accurate
                    information on the case type, status, resources, and time expended in
                    performing the analysis. This system should also have the proper security
                    controls to maintain integrity of the data. (1 recommendation)


OIG-06-034   8/06   Bank Secrecy Act: OCC Did Not Take Formal Enforcement Action Against
                    Wells Fargo Bank for Significant BSA Deficiencies
                    The Comptroller of the Currency should closely monitor Wells’s implementation
                    of its BSA compliance plan and, if implementation is not adequate or timely,
                    swiftly take appropriate formal enforcement action (e.g., a cease and desist
                    order). (1 recommendation)


OIG-06-040   9/06   Information Technology: Effective Security Controls Needed to
                    Mitigate Critical Vulnerabilities in the Office of the Comptroller of the Currency’s
                    Networked Information Systems
                    Due to the sensitive nature of the findings and recommendations, we designated
                    the report Limited Official Use. Three recommendations in the report have not
                    been implemented.


OIG-CA-07-003 11/06 INFORMATION TECHNOLOGY: Evaluation of Treasury's Compliance with OMB
                    M-06-016
                    Due to the sensitive nature of the finding and recommendation, we designated
                    the report Limited Official Use. One recommendation in the report has not been
                    implemented.


OIG-07-020   12/06 Report on the Office of the Comptroller of the Currency's Fiscal Years 2006 and
                   2005 Financial Statements
                   OCC should (1) continue implementation of new processes to ensure new
                   employees complete initial security awareness training timely; (2) ensure all new
                   employees and contractors complete and sign all access agreements;
                   (3) implement password configuration settings for certain systems identified
                   during the audit in accordance with NIST Special Publication 800-12 and
                   (4) develop and implement a process for the active and systematic detection,
                   notification, and prompt removal of unauthorized personal and public domain
                   software in accordance with NIST Special Publication 800-53.
                   (4 recommendations)


OIG-07-029   2/07   Management Letter for the Fiscal Year 2006 Audit of the Department of the
                    Treasury’s Financial Statements
                    The Department should: (1) assess and address financial management human
                    capital needs, (2) require all Treasury component entities to prepare their
                    financial statement in accordance with federal generally accepted accounting
                    principles, (3) improve quality control review procedures over financial data,



              Treasury Office of Inspector General Semiannual Report – March 2008                    28
                              S TATISTICAL S UMMARY

                     (4) improve Treasury’s A-123 process, (5) develop a disaster recovery plan for
                     TIER and CFO Vision financial systems, and (6) establish a functionality in TIER
                     that will automatically invoke a session timeout after an extended period of time.
                     (6 recommendations)


OIG-07-034   3/07    SAFETY AND SOUNDNESS: OTS Could Further Strengthen Its Ability to Assess
                     Risks to Thrifts Following Emergencies
                     The OTS Director should (1) ensure that OTS develops a process that will enable
                     the collection of critical information about thrifts’ financial conditions following
                     an emergency in a consistent manner. As part of this process OTS should
                     consider developing a structured questionnaire for obtaining critical information,
                     and (2) ensure that following an emergency, OTS determine and establish
                     appropriate timeframes based on the gravity of the situation, for analyzing the
                     effects on affected thrifts financial condition. (2 recommendations)


OIG-07-035   3/07    BILL AND COIN MANUFACTURING: Control Weaknesses Need To Be Addressed
                     at BEP's Western Currency Facility
                     The BEP Director should (1) ensure that supervisors monitor and enforce
                     Western Currency Facility and contractor staff members adherence to policies
                     and procedures; (2) ensure that two persons constantly monitor the closed
                     circuit television consoles; (3) establish clear, written policies and procedures
                     that specify assignment of responsibilities and actions to be taken if a
                     discrepancy is found during verification and authentication; (4) evaluate the
                     effectiveness of the current authentication process and, in doing so, consider the
                     objectives for these procedures in safeguarding assets, as well as the potential
                     risks associated with the current procedures; (5) assign personnel other than the
                     product security specialists to handle mutilated currency during authentication
                     should it be decided to continue this process; (6) ensure that tracking and
                     accountability documents are modified to correspond to policies and procedures
                     identifying each control point, and that the documents are completed as
                     required. (6 recommendations)


This list of OIG audit reports with unimplemented recommendations is based on information in
Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials. We also considered the results of the most recent financial audits,
which include follow-up on matters reported in prior financial audits.



Summary of Instances Where Information Was Refused
October 1, 2007, through March 31, 2008

There were no such instances during this period.




               Treasury Office of Inspector General Semiannual Report – March 2008                    29
                                S TATISTICAL S UMMARY

Listing of Audit and Evaluation Reports Issued
October 1, 2007, through March 31, 2008

Financial Audits and Attestation Engagements

Audit of the United States Mint's Schedule of Custodial Deep Storage Gold and Silver Reserves as of
September 30, 2007 and 2006, OIG-08-001R, 11/14/07

Audit of the Bureau of Engraving and Printing's Fiscal Years 2007 and 2006 Financial Statements,
OIG-08-003, 10/31/07

Financial Management: Report on the Bureau of the Public Debt Trust Fund Management Branch
Schedules for Selected Trust Funds as of and for the Year Ended September 30, 2007, OIG-08-004,
11/5/07

Management Letter for Fiscal Year 2007 Audit of the Bureau of Engraving and Printing's Financial
Statements, OIG-08-005, 11/7/07

Audit of the Financial Management Service's Fiscal Years 2007 and 2006 Schedules of Non-Entity
Assets, Non-Entity Costs and Custodial Revenue, OIG-08-006, 11/13/07

Audit of the Federal Financing Bank's Fiscal Years 2007 and 2006 Financial Statements, OIG-08-007,
11/14/07

Management Letter for Fiscal Year 2007 Audit of the Federal Financing Bank’s Financial Statements,
OIG-08-008, 11/14/07

Audit of the Department of the Treasury's Fiscal Years 2007 and 2006 Financial Statements,
OIG-08-009, 11/15/07

Audit of the Financial Management Service's Fiscal Years 2007 and 2006 Schedules of Non-Entity
Governmentwide Cash, OIG-08-010, 11/15/07

Report on Community Development Financial Institutions Fund’s Fiscal Years 2007 and 2006 Financial
Statements, OIG-08-011, 11/16/07

Audit of the Department of the Treasury's Special-Purpose Financial Statements for Fiscal Years 2007
and 2006, OIG-08-012, 11/17/07

Management Report for Fiscal Year 2007 Audit of the Financial Management Service's Schedule of
Non-Entity Governmentwide Cash, OIG-08-013, 12/3/07

Audit of the Office of D.C. Pensions’ Fiscal Years 2007 and 2006 Financial Statements, OIG-08-014,
12/4/07

Management Letter for Fiscal Year 2007 Audit of the Financial Management Service's Schedule of Non-
Entity Assets, Non-Entity Costs and Custodial Revenue, OIG-08-015, 12/5/07

Audit of the Exchange Stabilization Fund’s Fiscal Years 2007 and 2006 Financial Statements,
OIG-08-016, 12/10/07




                Treasury Office of Inspector General Semiannual Report – March 2008                   30
                                S TATISTICAL S UMMARY

Audit of the United States Mint's Fiscal Years 2007 and 2006 Financial Statements, OIG-08-017,
12/10/07

Management Letter for the Fiscal Year 2007 Audit of the United States Mint's Financial Statements,
OIG-08-018, 12/10/07

Audit of the Office of Thrift Supervision's Fiscal Years 2007 and 2006 Financial Statements,
OIG-08-019, 12/12/07

Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years 2007 and 2006 Financial
Statements, OIG-08-020, 12/14/07

Management Letter for the Fiscal Year 2007 Audit of the Department of the Treasury Forfeiture Fund’s
Financial Statements, OIG-08-021, 12/14/07

Audit of Financial Crimes Enforcement Network's Fiscal Years 2007 and 2006 Financial Statements,
OIG-08-023, 12/14/07

Management Letter for the Fiscal Year 2007 Audit of the Department of the Treasury's Financial
Statements, OIG-08-024, 12/20/07

Audit of the Office of the Comptroller of the Currency's Fiscal Years 2007 and 2006 Financial
Statements, OIG-08-026, 1/9/08

Management Letter for Fiscal Year 2007 Audit of the Office of the Comptroller of the Currency's
Financial Statements, OIG-08-027, 1/9/08

Management Report for Fiscal Year 2007 Audit of the Office of the Comptroller of the Currency's
Financial Statements, OIG-08-028, 1/9/08

Information Technology Audits and Evaluations

Information Technology: 2007 Evaluation of Treasury’s FISMA Implementation For Its Non-IRS Non-
Intelligence National Security Systems, OIG-CA-08-001, 10/1/07 (Sensitive but Unclassified)

Information Technology: 2007 Evaluation of Treasury’s FISMA Implementation, OIG-CA-08-002,
10/1/07

Information Technology: Network Security at Financial Crimes Enforcement Network Needs
Improvement, OIG-08-025, 1/9/08 (Sensitive but Unclassified)

Performance Audits

Acquisitions: Although Weaknesses Still Exist, the Treasury Franchise Fund Improved Compliance with
DOD Procurement Requirements, OIG-08-002, 10/29/07

Combating Terrorism: Treasury Provides Terrorism Information for Consolidated Watchlist Purposes
Through Its Specially Designated Nationals List, OIG-08-022, 12/14/07

General Management: Treasury Has Taken Action to Improve Its Purchase Card Program (Corrective
Action Verification on OIG-04-034), OIG-08-029, 1/29/08



                Treasury Office of Inspector General Semiannual Report – March 2008                  31
                               S TATISTICAL S UMMARY


Supervised Contract Audits

DCAA Audit Report - Concordia Manufacturing Corporation Firm Fixed Price Subcontract Proposal for
Solicitation TEP-08-000, OIG-CA-08-003, 10/12/07

DCAA Audit Report - Spectra Systems Corporation Firm Fixed Price Proposal for Solicitation
TEP-08-0001, OIG-CA-08-004, 10/12/07



Audit Reports Issued with Questioned Costs
October 1, 2007, through March 31, 2008

At the beginning of the period, there were no audit reports from prior periods pending a
management decision with questioned costs. There were also no audit reports issued during
this period with questioned costs.



Audit Reports Issued With Recommendations That Funds Be Put to Better Use
October 1, 2007, through March 31, 2008

At the beginning of the period, there were no audit reports from prior periods pending a
management decision on recommendations that funds be put to better use. There were also
no audit reports issued during this period with recommendations that funds be put to better
use.



Previously Issued Audit Reports Pending Management Decisions (Over 6 Months)
as of March 31, 2008

There were no audit reports issued before this semiannual reporting period that are pending a
management decision.



Significant Revised Management Decisions
October 1, 2007, through March 31, 2008

There were no significant revised management decisions during the period.



Significant Disagreed Management Decisions
October 1, 2007, through March 31, 2008

There were no management decisions this period with which the IG was in disagreement.




                Treasury Office of Inspector General Semiannual Report – March 2008                 32
          R EFERENCES T O T HE I NSPECTOR G ENERAL A CT




   Reference                                      Requirement                             Page
Section 4(a)(2)      Review of legislation and regulations                                 26
Section 5(a)(1)      Significant problems, abuses, and deficiencies                       9-22
Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    9-22
                     deficiencies
Section 5(a)(3)      Significant unimplemented recommendations described in previous      27-29
                     semi-annual reports
Section   5(a)(4)    Matters referred to prosecutive authorities                           26
Section   5(a)(5)    Summary of instances where information was refused                    29
Section   5(a)(6)    List of audit reports                                                30-32
Section   5(a)(7)    Summary of significant reports                                       9-22
Section   5(a)(8)    Audit Reports with questioned costs                                   32
Section   5(a)(9)    Recommendations that funds be put to better use                       32
Section   5(a)(10)   Summary of audit reports issued before the beginning of the           32
                     reporting period for which no management decision has been made
Section 5(a)(11)     Significant revised management decisions made during the reporting    32
                     period
Section 5(a)(12)     Management decisions with which the Inspector General is in           32
                     disagreement
Section 5(a)(13)     Instances of unresolved FFMIA non-compliance                         10
Section 5(d)         Serious or flagrant problems, abuses or deficiencies                 N/A
Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                     refused




             Treasury Office of Inspector General Semiannual Report – March 2008                  33
                                  A BBREVIATIONS


ARC                Administrative Resource Center
BEP                Bureau of Engraving and Printing
BPD                Bureau of Public Debt
BSA                Bank Secrecy Act
CDFI Fund          Community Development Financial Institutions Fund
CFO Act            Chief Financial Officers Act
CFO Vision         Chief Financial Officer Vision
CPAs               Certified Public Accountants
DO                 Departmental Offices
DOD                Department of Defense
FAEC               Federal Audit Executive Council
FinCEN             Financial Crimes Enforcement Network
FISMA              Federal Information Security Act of 2002
FMS                Financial Management Service
GAO                Government Accountability Office
GMRA               Government Management Reform Act of 1994
IRS                Internal Revenue Service
IPA                Independent Public Accountant
IT                 information technology
MCA                managerial cost accounting
NCTC               National Counterterrorism Center
NIST               National Institute of Standards and Technology
OA                 Office of Audit
OI                 Office of Investigations
OIG                Office of Inspector General
OCC                Office the Comptroller of the Currency
OFAC               Office of Foreign Assets Control
OMB                Office of Management and Budget
OTS                Office Thrift Supervision
PCIE/ECIE          President’s Council on Integrity and Efficiency and Executive Council on
                       Integrity and Efficiency
RRB                Railroad Retirement Board
SDN                Specially Designated Nationals
SSA                Social Security Administration
TSC                Terrorist Screening Center
TIER               Treasury Information Executive Repository
TIGTA              Treasury Inspector General for Tax Administration
VA                 Department of Veterans Affairs




             Treasury Office of Inspector General Semiannual Report – March 2008          34
                                ANDREW JOHNSON SUITE

The Treasury Building served as the location of the temporary White House in 1865
  when Andrew Johnson assumed the presidency following the assassination of
Abraham Lincoln. The presidential association, coupled with historic documentation
   for furnishing the rooms, makes the Andrew Johnson Suite one of the most
                    significant spaces in the Treasury Building.
                            Source: Office of the Curator
 contact us



Headquarters
Office of Inspector General
1500 Pennsylvania Avenue, N.W.,
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090;
Fax: (202) 622-2151

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400;
Fax: (202) 927-5379

Office of Investigations
740 15th Street, N.W., Suite 500
Washington, D.C. 20220
Phone: (202) 927-5260;
Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-0650;
Fax: (202) 927-5418

Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-5200;
Fax: (202) 927-6492

Eastern Field Audit Office
                                   Treasury OIG Hotline
408 Atlantic Avenue, Room 330      Call Toll Free: 1.800.359.3898
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640;
Fax (617) 223-8651                 Treasury OIG Web Page

                                   OIG reports and other information are now
                                   available via the Internet. The address is
                                   http://www.treas.gov/inspector-general
